PRATIK A. SHAH
+1 202.887.4210/fax: +1 202.887.4288
pshah@akingump.com

VIA ELECTRONIC FILING

July 1, 2021

The Hon. Scott S. Harris
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re: Waiver of Response to the Petition for a Writ of Certiorari in Ultratec,
Inc. v. CaptionCall, LLC, et al., No. 20-1700
Dear Mr. Harris:
Respondent CaptionCall, LLC hereby waives its right to file a response to the
petition for a writ of certiorari in the above-referenced case, unless one is requested
by the Court. A signed copy of the Court’s waiver form is enclosed with this letter.
Thank you very much for your time and assistance.
Sincerely yours,

Pratik A. Shah

cc:

Donald K. Schott, Counsel for Petitioner Ultratec, Inc.
Elizabeth B. Prelogar, Counsel for Respondents Drew Hirshfeld, Acting
Under Secretary of Commerce for Intellectual Property and Director, and
United States Patent and Trademark Office

Robert S. Strauss Tower | 2001 K Street, N.W. | Washington, D.C. 20066 | 202.887.4000 | fax 202.887.4288 | akingump.com

W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1700

Ultratec, Inc.

CaptionCall, LLC
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
CaptionCall, LLC

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

7/1/21

(Type or print) Name

Pratik A. Shah
Mr.

Ms.

Mrs.

Firm

Akin Gump Strauss Hauer & Feld LLP

Address

2001 K Street N.W.

City & State

Washington, D.C.

Phone

202-887-4210

Miss

Zip 20006
Email

pshah@akingump.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Donald K. Schott, Counsel for Petitioner Ultratec, Inc.
Elizabeth B. Prelogar, Counsel for Respondents Drew Hirshfeld, Acting Under Secretary of Commerce
for Intellectual Property and Director, and United States Patent and trademark Office

